 ..    ..   ~~~




            THE ACCESS OF DIALYSIS PATIENTS

              TO KIDNEY TRANSPLANTATION





              ':1.H'   I(IS




OFFICE OF INSPECTOR GENERAL
      OFFICE OF ANAL YSIS AND INSPECTIONS


                                            MA 1987
, ,





                           THE ACCESS OF DIALYSIS PATIENTS

                              TO KIDNEY TRASPLATATION




       RICHAD P.   KUSSEROW                              DATE OF INSPECTION
       INSPECTOR GENERAL                                      1-.ACp. 1987




       CONTROL #OAI-Ol-S6-00107

                         Office of Inspector General

  The mission of the Office of Inspector General 

  promote the efficiency, effectiveness and integrity    (OIG)ofisprograms

                                                                   to

           the Cni ted states Department of Health and Human Services
   HS). It          does this by developing methods to detect and prevent
  fra          waste and abuse. Created by statute in 1976
  Inspector General keeps both the Secretary and the Congress, the
    fully

 and currently informed about programs or management problems and

 recommends corrective     action.
 conducting audits , investigations     The OIG performs its mission by
                                           and inspections with
 approximately
                         200 staff strategically located arounQ the
 country.

                   Office of Analysis and Inspections

This report is produced by the Office of Analysis and Inspections

 (OAI), one of the three maj or offices wi
two are the Office of Audit and the Office of  thin the OIG.
                                                         The other
OAI conducts inspections which are              Investigations.
                                     typically, short-term studies
designed to determine program effectiveness

vulnerability to fraud or abuse.             , efficiency and



                                This Report

Enti tIed " The Access of Dialysis Patients to Kidney Transplan­

tation  " this report is based on a comprehensive study conducted

to help the u. S. Department of Health and Human Services and

other interested parties gain a better understanding of the
effectiveness , efficiency and equity of organ acquisition
practices in the  U. S.
The study was prepared by the Regional 'Inspector General

of Analysis and Inspections                               , Office

                            , Boston Region. Participating
proj ect were the following pe                               in the
                               ple:
Boston Reqion

                                                   Headquarters Office
Mark R. Yessian , Ph.

  (proj ect Leader)                                Betty S.   Burrier
Barry McCoy
Eleanor Ellis
                               TABLE OF CONTENTS


       MAJOR FINDINGS

       RECOMMENDATIONS                              . ii
       INTRODUCTION

       THE PROBLEM

       THE CAUSES


I ,	   THE IMPLICATIONS

       RECOMMENDATIONS

       APPENDIX I
            BACKGROUND AND METHODOLOGY

       APPENDIX II

            METHODOLOGY FOR MEDICARE

            COST SAVINGS ESTIMATES

       APPENDIX III

            HCFA, ASH, AND ASPE COMMENTS ON

            THE DRAFT REPORT AND OIG RESPONSES.

.. )




                              MAJOR FINDINGS

       Al though kidney transplantsurgeons report that at
       least 20 to 25 percent of the dialysis population is

       medically suitable for a transplant, only 10 to 11

       percent of that population is on a transplant waiting

       list.
       A maj or factor contributing to this differential is the

       failure of some dialysis facilities to provide their

       patients with a full and fair opportunity to receive a

       transplant.
       Across the country, a number of dialysis facilities

       have transplant referral rates well below the national

r !	   average.  Some of these are large facilities with SO or
       more patients.

       Under Medicare conditions of coverage, dialysis

       facil i ties are required to develop patient long-term
       care plans that designate suitable treatment modalities

       for patients. The oversight of this requirement by

       state survey agencies and ESRD network organizations

       has been spotty and often ineffectual.
       A Medicare requirement notwithstanding , it appears that

       transplant surgeons are not regularly involved in

       reviewing patient long-term care programs. Further,
       the patients' own role in this process tends to be

       minimal and passive.
       A number of considerations support the case for
       significantly increasing the number of referrals for
       kidney transplantation, even at a time when close to
       10, 000 individuals are already reported to be awaiting
       a transplant. Among them are the following:
               Precluding a patient the opportunity for a

               transplant is unethical, regardless of the

               length of a waiting list.
               Non-sensitized dialysis patients are likely
               to receive a transplant quickly.
               Increased waiting lists would reduce the

               likelihood of cadaver kidneys being discarded

               or provided to foreign nationals.
               The supply of cadaver kidneys may increase
               significantly in the near future.

               Low referral rates can add to Medicare   costs.
                                         RECOMMENDATIONS

HCFA should require that network organizations prepare

and disseminate , annually, a report that indicates
dialysis facility, the proportion of patients on a , by

transplant waiting                      list.
HCFA should                 ensure that intensive oversight is given
to dialysis                 facilities having transplant referral rates
appreciably                 below the network. average.
the network                                             In particular,
                            organizations should be required to conduct
thorouah medical records reviews of 


be authorized to prescribe corrective uch facilities
                                       action 
      and

                                                            plans.
HCFA should ensure that State survey agencies conduct a
thorough and more outcome oriented review of the Medi­
care condition of coverage concerning patient long-term
programs and patient care plans.
HCFA should require that as a condition of reimburse­

ment for routine dialysis , a facility must have for

each patient a written long-term program and a written

patient care plan signed by the 

and a transplant surgeon.        patient, a nephrologist

HCFA should work with the Public Health Service to

encourage the American Society of Transplant Surgeons

(ASTS) to provide some guidance on which dialysis

patients are medically suitable candidates for kidney

transplants.
.:-




                                 INTRODUCTION


      Dialysis is a life-saving process. It is also a debilitating
      one.  Each year it exerts a signifi ant toll on the physical
      social, psychological, and financial well-being of patients.
      Each year close to one-fourth of those taking the three-times­
      week treatment die.
      In a 1980 study, we examined the impact that dialysis has on the
      life style of patients.  We heard patients describe the loss of
      physical strength, the dietary restrictions, the disruptions to
      their marriages and social life in general, and the weariness
      associated with their continued dependence on a machine.
      Further, we found that the impact on their employability was
      "dramatic and far-reaching. Of 160 patients we met who were
      working full-time when their kidneys failed, only 29 (18 percent)
      were working full time and 22 (7 percent) part time at the time
      of our discussions.


      It is understandable then, why the dialysis patients expressed
      considerable interest in kidney transplantation. Even the most
      skeptical and cautious among them tended to see in transplan­
      tation the possibility of a " cure-all, " of a chance for a normal
      life once again.
      In recognition of the opportunity transplantation afforded for

      improving the quality of life for renal patients and for reducing

      long-term costs for the Medicare-funded End Stage Renal Disease

       (ESRD) program, Congress, in 1978, passed legislation providing

      greater financial incentives for transplantation. In particular,
      this involved the enactment of provisions (1) authorizing payment
      in  full for the reasonable expenses of kidney donors and (2)
      extending program coverage for kidney recipients from 12 to 36
      months following transplantation.

      These provisions did provide some stimulus. But the maj 

      increase in   transplantation came a few years later in response to
      significant advances in transplantation technology and immuno­
      therapy.    Particularly notable was the widespread introduction in
      November 1983 of cyclosporine, a powerful immunosuppressive
      drug.
      These developments led to considerable improvements in trans­
      plantation results , particularly with respect to transplants
      involving the use of cadaver kidneys. By the mid 1980s , the one
      year patient survival rate for those having a cadaver kidney
      transplant was averaging about 93 percent; the one year graft-
      survival rate about 75 percent. For those having living related
      transplants , the comparable averages were about 96 and 88
      percent.
Accordingly, for many individuals whose kidneys have failed
transplantation provides a viable treatment option. Al though
there are still risks and limitations, they are much less

pervasive than was the case when we conducted our study only 

years ago.


Since then the interest in transplantation has increased greatly

among both the professional and patient communities. From 1980

to 1986, the annual incidence of
 idney transplantation increased
63 percent, from 4, 697   to 7    695.
Yet, in the midst of this change, 'we have found that across the
country there are still a number of dialysis facilities that do
not afford their patients with a full and fair opportunity to
pursue the option of transplantation. This is so despite the
fact that Medicare ESRD program regulations require each dialysis
facility to develop a " written long-term program representing the
selection of a sui table treatment modality (i. e., dialysis or
transplantation) and dialysis setting (e.g., home, self-care) for

each patient.


In this report, the second in a series of reports concerning
organ acquisition systems, we examine this problem of limiting
patient access to transplantation, a practice which some refer to
as " sequestering.   We address the nature and dimensions of the
problem, the causes, and the implications. We close with some
recommendations addressed to the Health Care Financing Adminis­
tration  (HCFA) in the U. S. Department of Health and Human
Services (DHHS).
                                 THE PROBLEM

               . even more pressing than the problem of

          non-Americans receiving kidneys is the

          problem of many Americans being dialysized

          who are not being considered for

          transplantation. "
The above comment was part of prepared testimony submitted by
Paul I Terasaki, Professor of Surgery at the UCLA School of
Medicine, to the House Subcommittee on Investigations and Over­
sig t of the Committee on Science and Technology. The testimony
was presented in November 1983 at hearings which the Subcommittee
held on the procurement and allocation of human organs for
transplantation.
In the nearly 3 years that have passed since those hearings
we have found that the problem       remains.
                                          Although transplant
surgeons report that at least 20 to 25 percent of the dialysis
population is medically sui table for a kidney transplant , HCFA
data indicate that only 11. 5 percent of that population is on a
, ,




      transplant waiting list.  Taking into account the duplications
      reflected in the waiting list data, the actual proportion of
      dialysis patients awaiting a transplant is probably closer to 10
      percent.
      Why is there such a differential between the proportion of
      sui table candidates and the percent actually awaiting a trans­
      plant?   Certainly patient choice is afactor.   Some patients, of
      their own volition, prefer not to have a transplant, which, after
      all, does involve some risks.   Some may be reluctant to give up
      their time slot for regular dialysis treatments.   Others may have
      some interest in a transplant, but because of the distance to the
      transplant center may conclude that it is not a realistic
      alternative.   Some studies carried out by ESRD network organ­
      izations suggest this factor as a possibility.

      But clearly a maj or factor responsible for the differential is
      the failure of some dialysis facilities to keep their patients
      adequately apprised of the transplantation option and to suggest
      that option to the appropriate  candidates.  This assessment was
      offered to us by many surgeons, nephrologists, transplant
      coordinators, and network directors from different parts of the
      country.
      Most were quick to clarify that in their areas the phenomenon was
      not widespread -- that most dialysis facilities and referring
      nephrologists were quite conscientious in informing patients of
      treatment options and in referring them for transplantation. The
      problem, they added, tended to involve a small numer of   facil­
      i ties,some of which were quite large and some of which had
      consistently low referral rates over the years. In  a few cases,
      the problem appeared to be more widespread involving much of the
      dialysis community in a particular locale.
      To get a better sense of the scope of the problem, we examined
      data on referral patterns of each of the dialysis facilities
      located in three different ESRD networks. The networks are in
      three different parts of the country: New England, the South and
      the West. In  each case, we had visited one or more cities in the
      network.
      In each of these areas we found extensive variation in the degree
      of attention given to transplantation by dialysis  facilities.
      While some regularly had referral rates of 15 percent or more,
      others were consistently at levels well below the national
      average of 11. 5 percent. Following is some capsule information
      on the three networks and the findings concerning them.
                    Network :#4
 This network covers 13 counties in southern

 California, including Los Angeles and Orange

 counties. As of December 1985 , it included

 106 dialysis facilities, which had 6

                                       204
 patients , 9 percent of whom were on trans­
 plant waiting lists.
 In 31 of the facilities , 5 percent or less of
 the patients were on transplant waiting
  ists . Ten of these facil i ties had 80 or
 more patients.


 One dialysis facility with 117 patients had

 only one individual awaiting a transplant.

 Another ,
 waiting list.
          with 181 patients had only 4 on a

                Since 1981 that facility

 consistently has referred only 1 to 2 percent

 of its patients for transplantation.



                   Network #18

This network covers Alabama 
 (except for one

county), Mississippi, Tennessee, and selected

counties in Arkansas , Georgia
Virginia. As of December 1984, , Missouri, and

                                  it included

79 dialysis facilities , which had 4
                                      284

patients , 9 percent of whom were on trans­

plant waiting  lists.
In 26 of the facilities
 S percent or less of

the patients are on transplant waiting

lists.  These include 5 of the 18 facilities

with 80 or more patients and 14 of the 22 in

Mississippi.
One facility with 205 patients had only 5

awaiting a transplant.

                   Network #28

This network covers Maine   , Massachusetts , New

Hampshire , Rhode Island , and  Vermont.
December 1985, it included 40 operatingAs of
dialysis facilities , which had 2, 744
patients. During  1985 , 9 percent of the
patients had a kidney transplant.
percentage of patients on transplant(Data  on
 

                                       waiting
 ists were not readily available.

                  In 8 of the facilities  5 percent or less of
                  the patients received a transplant in 1985.
                  Two of these facilities had 80 or more
                  patients.
                  One facility , with 253 patients had only 8 of
                  its patients receive a transplant in 1985.
                  In another facility that maintained a patient
                  census of about 50 in 1984 and 1985, none of
                  the patients received a transplant during
                  that period.
It is important to recognize that the presence of some facilities
having low transplant referral rates in these networks is not
unique to these networks. The same phenomenon is likely to be
found in all or nearly all the networks.
In some instances, of course, the medical condition and/or age of
the patients may very well explain the low incidence of re­
ferral.  In many other facilities, especially larger ones having
80 or more patients, patient characteristics are much less likely
to provide a satisfactory explanation.


                                     THE CAUSES

Why, then, aren't more dialysis patients who are likely can­
didates for transplants being considered for transplants?
Indeed, in view of the widespread reports on the successes of
transplants , why aren I t the dialysis patients themselves urging
that they be considered for transplants?


In actuality, dialysis patients are becoming more informed and

assertive in this          regard.
                             That is in part responsible for the
fact that from 1980 to 1985 kidney transplant waiting lists have
increased from 5, 072 to 9, 781, from 9. 7 percent of the dialysis
population to 11. 5 percent.


But there are two maj or factors that serve to constrain patient
ini    tiati ve in
                 seeking out the transplantation      option.
                                                          One is
that those . wi th unsuccessful transplants typically return to the
dialysis facility and share their frustrations with the other
patients, while those with successful transplants are seldom if
ever seen aga 
      in.
More significant perhaps is the other factor - the dependence and

deference that generally characterize the patients I relationship
wi ththeir nephrologists. From the onset of their kidney
failure , which often causes considerable disorientation and
anxiety, patients usually become accustomed to following the
direction and advice of their nephrologists on matters concerning
their treatment.
 As noted earlier,   it appears that most nephrologists are quite
 conscientious in considering the best treatment plan for their

 patients and that many are becoming increasingly inclined to

 recommend transplantation. On the 

 ations , however , some still seem tobasis of medical consider­

                                       have major reservations about
 transplantation and are likely to take a very conservative

 approach in determining its appropriateness for their 

                                                         patients.
 Instead of the previously cited 20-25 percent of the dialysis

 patients being prime candidates for
                                       transplantation, they may

 regard 5 to 10 percent as a more appropriate
                                                 level.

 Notwi thstanding that there is room for disagreement on the basis
 of medical considerations , many individuals
 of transplant surgeons, feel that other considerations     a numer
                                               , including often  loom
 behind a nephrologist' s lack of enthusiasm for transplantation.
 In particular, they refer to financial 

 referring a patient for transplantation considerations. By

                                          , they
 take the chance of losing income In a newer      note , nephrologists

                                               facility   trying to

 get established , a proprietary one owned by nephrologists

 having a difficult time maintaining its                      , or one

 factor , some feel, may be particularly important.
                                           caseload, this financial


Nephrologists are quick to deny such 

them do express concern that patients assertions.
                                       who receive But many of
                                                   a transplant

often become " captured" by the transplant surgeons -- that
                                                               is,

they don't refer the patients back to the nephrologists for post-
transplant care concerning their renal
                                          disease.Surgeons
respond that they are best suited to manage the drug       tend
                                                      regimen   to
                                                              for
the patients and to identify early signs of impending graft
failure.
Given that a dialysis facility is required in Medicare regula­

tions to develop patient long-term care plans that designate

suitable treatment modalities for patients and that involve

transplant surgeons in the process

facili ty,                        , one might well ask how a

          for whatever reasons, could deny its patients full and
fair access to transplantation. The answer 

                                            is that the oversight

of this requirement has been spotty and often
particularly, it appears, during the past year ineffectual,

                                                or
                                                     two.

The responsibility for oversight 1s that of the state survey

agencies and the ESRD network
                                organizations. The State agencies

review dialysis facil i ties as part of the Medicare survey and
certification process to assure that they are in accord with

Medicare conditions of participation. The
                                             network
are responsible under Medicare regulations for       organizations

                                                 fostering the

quality and appropriateness of patient care, including "the use

of those treatment settings most compatible   with the successful

rehabil itation of the patient.


The State survey teams, first of all, review ESRD facilities

about every other year. From HCFA'
                                   s Medicare/Medicaid Automated

Certification System (MMCS), we found  that over the past 2
years, 183 or 12 percent of the 1503 dialysis facilities reviewed
 were found to be deficient in meeting the Medicare standard

 concerning a patient long-term care     program.
                                                (This standard and
 another concerning patient care plans together constitute a

  condi tion. " We have not determined the exact nature of the

 deficiencies found across the     country.
                                         But for one State having
 a significant number of these deficiencies , we learned that most

 involved a failure to have a written long-term care program in

 the patient' s file.
This data and our review suggest that some States give a good

deal of attention to whether or not proper procedures are

 followed in determining a patient' s treatment modality.
24 States no facilities at all were found to be deficient But   in
                                                             with

respect to the above noted standard and in 14 others only 2 or

less were identified as     deficient. In one heavily populated
urban area, where referral for transplantation has been a

significant problem , the State survey team cited only two

facil i ties , during the past 2 years, for being in violation of
the standard.


Further , even where deficiencies are identified and corrective
action subsequently taken, it does not necessarily have a notable
effect on the rate of referral, since the thrust of the State
review is on process elements rather than
                                           outcomes.
is the experience in one State where the State           Illustrative
                                                survey team awhile
back raised concerns about how transplant surgeons were not
adequately involved in preparing patient care
                                               programs.
to an arrangement whereby the dialysis facilities         This led
                                                   would regularly
send medical records to a transplant surgeon, who would review
them and then send them back to the facility with his comments
about the sui tabili    ty of a transplant. In assessing that
process ,the surgeon told us how he seldom heard back concerning

any of the cases he reviewed.


As a rule , it appears that transplant surgeons are not regularly
invol ved in reviewing patient long term care programs.
they are involved, it tends to be in a distant and ratherAnd when
passive way as noted     above.
                              Rarely, it seems, do the nephrolo­
gist, transplant surgeon, and other professionals meet with the

dialysis patient, as a team, to discuss treatment options.
                                                             One
factor that may tend to discourage such practice is that trans­
plant surgeons are not allowed to bill Medicare for consultation
  rvices for dialysis patients considering a transplant. Such
services are regarded as part of the nephrologist'
                                                   s monthly
capitation payment. Any payment to the surgeons must   be made
directly by the nephrologists.


Network organizations , as noted, also have a role in overseeing

dialysis facilities. Over the years, many of them, have devoted

considerable attention to the adequacy of dialysis facility
practice in alerting patients to transplant opportunities.
Through surveys , medical record reviews of individual facilities
 patient education, and other initiatives

 mental in improving referral rates for transplantation             , they have been
 instru­

 as home dialysis). In many cases                                                   (as well
                                                             , peer review and pressure seem
 to have had some effect 

                                                    in changing the practice of those with

 unusually low rates. In cases where they haven'
                                                                            t, the network

 organizations haven't been able to do much about 

                                                                       it.
During the past 2 years, as a result of bUdgetary cutbacks

network organizations appear to haye become less active and, the


prepared.
effecti ve in this area.
restrictions have led to reductions 

                                      In a number of cases , the financial
undertaken, medical records reviewed in the scope of studies
                                                 , and informational material



                                   THE IMPLICATIONS

The most important implication associated with the finding that

many dialysis patients who are sui table transplant candidates

are , in fact, not being considered for a transplant is

                                                       , of
 of an

course , quite clear. It means that they are being deprived
opportunity to improve the quality of their 

study conducted recently by the Batelle Humanlife.  A national
                                               Affairs Research

Centers and funded by HHS found that

                                      " transplant
consistently reported a higher objective           recipients

                                          and subjective quality

of life than patients undergoing any form of dialysis.

ing this opportunity to a dialysis patient is an unethicalPreclud­
                                                            and

list.
irresponsible practice , regardless of the length of a waiting

       This is reason enough for attempting to eliminate the
practice.
Nevertheless , in the current environment where demand for cadaver
kidneys exceeds the supply, where close to 10,

reported to be awaiting a transplant           000 individuals are

significant increase in referrals would yield little that
                                     , one may argue  net a

benefit.  In fact , one may even argue that it would only serve to
raise expectations and add to the laboratory and other costs
incurred by those on a transplant waiting
                                                            list.
We find such a position to be short-sighted and detrimental
because it overlooks a number of important
are of particular note.                    considerations.                            Four
      Non-sensi tized dial vsis patients are likelY to receive
      a transplant auickly    Despite the long waiting
      patients with a low level of preformed antibodies are
                 lists,
      usually able to have a kidney transplant wi 

                                                  thin a few

      months of the time they are placed on a waiting
      This is because highly sensitized patients                             list.
                                                 , thosehave
      are most difficult to match with a donor kidney,   who

      become an increasingly prominent part of the transplant
      wai ting lists. As of          June 1986, 40 percent of 8, 610
 recipients on the national waiting list of the
 Network for Organ Sharing had a Panel Reactive United
  (PRA) level of 60 percent or more.              Antibody
 they were likely to reject 

                                       This means that
                              at least 6 of every 10 donor

 kidneys that became available.
 Thus many non-sensitized patients who are not on the

 waiting lists could receive a transplant much sooner

 than the waiting list statistics might lead one to

 expect.  Moreover, many immunologists and surgeons

 believe that they would be likely to keep the trans­
 planted kidney longer and have fewer
                                      ' complications than
 would those who are highly sensitized.
Increased waitina lists would reduce the likelihood of
cadaver kidneys beina discarded or Drovided to foreian
nationals In accord with recommendations in our first
report, HCFA is taking steps to assure that kidneys are
not offered to foreign nationals unless it has been
determined that no sui table U. s. recipients can be
found. In many localities and transplant centers,
increased waiting lists would add measurably   to the

likelihood of suitable U. s. recipients being
                                               found.

The same applies to increasing the possibility of a

kidney being used. As  waiting lists
of finding a suitable recipient tends increase, the jOb

                                       to be expedited

and simplified. More specifically, the organ procure­

ment agency is more likely to find a suitable candidate

in the same vicinity of the donor hospital, thereby

saving travel time and reducing the complexity and

uncertainty associated with sending kidneys a long

distance. This , in turn, reduces the risk of wastage.

This point was well illustrated in an article written
by G. M.           Williams , et al, that was published in the
February 1985 issue of 

                                   TransDlantation Proceedings

Entitled "Renal Transplant Wastage: 

Problem " the article focuses on 575 An             International

                                                 kidneys that were
excised by members of the United Network for Organ
Sharing (UNOS) during an 1S month period and that were
either discarded or sent overseas. It
 (68 percent) of these kidneys "failed to          showed that 393

                                                     be trans­
planted in the United States because of our inability
to identify non-sensitized recipients"
                                                (p. 1594).
effective systems for sharing kidneys could help reduce        More
such losses. So, too, could increased waiting lists

that would facilitate timely placements of donor

kidneys.
 The supply of cadaver kidneys may increase siqnifi­

 cantl y in the near future
                              This certainly is not a

 sure thing. But given the considerable   untapped

 potential of the donor pool and the extensive support
 being shown for the establishment of hospital "
 inquiry" procedures , it is quite probable.     routine
                                              Such
 procedures would ensure that the next-of-kin of

 suitable donors are alerted to opportunities for

 donating organs and tissues.
 The Task Force on Organ Transplantation, wi
 April 1986 final report, strongly endorsed "                    thin its
                                              routineon
 inquiry" and recommended that the Joint Commission
 the Accreditation of Hospitals (JCAH)
 it as a standard and that HCFA include incorporate
                                         it as a Medicare
 condition of participation for
                                hospitals.
 considering the adoption of a standard      The kind
                                         of this JCAH and
                                                      is
 Congress is considering legislation that would tie 


   routine inquiry" with the Medicare and Medicaid

 programs.
More notable is that at least 25 States already have

passed legislation requiring hospitals to establish

  routine inquiry" procedures. The great
the States passing such legislation       doneori
                                    have maj    soty

                                                    in

1986. In  those and still other States considering

similar legislation, there is considerable optimism

that it will increase the level of organ and tissue

donations.
Mindful of these developments and the problems he has

experienced in receiving referrals from dialysis

facilities in his area , one transplant surgeon

predicted:  "We'll have a surplus of kidneys sooner
than we'll have appropriate sized referral lists.


Low referral rates can add to Medicare costs

                                                This is
most obviously the case if Medicare recipients are

deprived of kidneys because they were discarded or

given to foreign nationals, or, as speculated above, if

the supply of kidneys were to  increase substantially

(without a concomitant jump in referrals). 

                                             In oppor­

cases the Medicare program could be denied the  such

tuni ty of cost savings, since, over time, the cost of

dialysis exceeds that of transplantation.

There are also other, more subtle ways in which costs
can be affected. One, as noted in the following
comment by the director of a tissue typing
concerns the frequency of collecting serum laboratory,
                                           samples. for
those on transplant waiting                             lists:
!:




                   "Dialysis facilities and transplant centers
                   are in competition. They don't like one
                   another.  They don't cooperate. If there
                   were better cooperation, we wouldn't need a

                   serum sample every two weeks. We'd get one

                   only after a blood transfusion.



                                  RECOMMENDATIONS
      In the United Kingdom , kidney dialysis now tends to be regarded

      as a sustaining device, pending a kidney transplant. 

                                                             Nearly
      those admitted to the dialysis program are admitted with  the
all

      understanding that they are candidates for a
                                                      transplant.

     In the United States , where dialysis is a near universal entitle­

     ment regardless of medical condition or age

     tion concerning transplantation would not be, a parallel presump­

                                                   desirable.
     given the significant advances in transplant outcomes  andYet

                                                                the

     fact that transplantation is more cost effective than dialysis

     an increased emphasis on transplantation would be quite

     desirable.
     The " routine inquiry" initiatives that were mentioned earlier

     reflect an important move in this
                                        direction.
     can provide a significant impetus to  the supplyAs of
                                                         wecadaver

                                                             noted, they

     organs. At the same time , for the reasons we have addressed, the
     demand side should also be     addressed.
     when Congress extended program coverage This
                                              from was  done
                                                    12 to  36 in 1978,

                                                               months

     following transplantation. Now , with transplant outcomes much

     better than those in 1978 and with  thousands of medically

     sui table dialysis patients not on transplant waiting lists
     once again time to devote some policy attention to the      , it   is

                                                             matter.
     In this regard, we urge that HCFA ensure full and effective

     enforcement of the Medicare condition of coverage requiring that

     dialysis facilities maintain patient long-term programs and

     patient care plans. In addition to requiring an up-to-date,

     wri tten assessment geared to the particular needs of a patient
     this condition requires that a transplant surgeon as well as the
     physician-director (nephrologist) of a dialysis facility and
     other professionals participate in making that 

                                                       assessment.
     HCFA' s recent regulatory changes concerning the structure and
     roles of the ESRD network organizations could help with the
     enforcement of this important condition. They
                                                    havethat
     of generating more efficient network organizations  the are
                                                             potential
                                                                 more
     sharply focused on their statutory requirements concerning the
     quali ty   and appropriateness of care.
        Below we offer five recommendations. Each is 

                                                        directed
        and each can help the network organizations perform      to HCFA

                                                              their
        oversight responsibilities more effectively. The
        directly concern network organization acti vi ties; first two
                                                            the next three
        do so in an indirect way, but are no less important.

                  HCFA should reauire that network orqaniza­

                  tions Drepare and disseminate, annuallY, a

                  report that indicates, bv dialysis facility,
                  the DroDortion of Datients on a transDlant

                  waitinq list

       Such a report should also provide information on the total number

       of patients of each facility; on certain characteristics

       whether or not the facility is part of                    , such as

                                               a transplant
       and/or the proportion of patients on a transplant    center;

                                                          waiting  list in

       the network area as a whole.   Moreover, it should be distributed
       widely to ESRD professionals , patients, State survey teams

       other interested parties.	                                  , and

       The report would provide comparative data that could be of

       considerable value. 	Most important, perhaps , is that it would

       serve as a form of peer pressure on those facilities  with
       referral rates below the average and with no plausible explana­
       tion accounting for them.
       Through a proposed regulatory revision requiring the creation and

       maintenance of a transplant waiting list by each 

       is taking an important step in the above noted   facility, HCFA

                                                      direction.
       However, to achieve sufficient impact, we still feel it is
       important to assure that the proportion of dialysis patients on
       each list is clear and that this information is widely
       disseminated.
                 HCFA should ensure that intensive oversiqht
                 is qi ven to dial ysis facilities having
                 transplant referral rates aDDreciablY below
                 the network averaqe. In Darticular, the
                 network orqanizations should be reauired to
( I	             conduct thorouqh medical records reviews of
                 such facilities and be authorized to Dre­
                 scribe 60rrective action Dlans
       For the laggard dialysis facilities, a greater sense of urgency

       and seriousness must be conveyed. The above steps would provide

       that.
       There are, of course, some facilities that will have lower

       referral rates for justifiable reasons -- most notably because of

       the age and/or medical condition of their
                                                  patients.  Network
       organizations should have flexibility in determining such

       facili ties and what if any special attention should be given to
   them.  For those with unjustifiably low referral
                                                    rates, however

   the network organizations should address the problem both in

   terms of individual cases and the systemic factors that led to

   the problem. It is with respect to the latter that corrective

   action plans should be directed.

   In cases where more information appears to be 

   ask the State survey agency to investigate the needed,
                                                   reasons HCFA
                                                            for acould

                                                                   low

   percentage of transplants. The network 

   should remain involved and have primary organizations,
                                            responsibilityhowever,

                                                            for

   identifying and directing corrective actions.
                   HCFA should ensure that State survey aaencies

                   conduct a thorouah and more outcome-oriented

                   review of the Medicare condition of coveraae

                   concernina Datient lona-term Droarams and

                   patient care Dlans

 Through a State agency bulletin, HCFA should alert the States to
 the fact that many dialysis patients are not adequately informed
 about transplantation opportunities and should urge the survey
 teams to give more scrutiny to this
                                              issue. In
                                                 particular,
 should ask that the survey teams determine if transplant     it
                                                            surgeons
 have been involved in developing the
                                       patients' long-term care
 programs , as is called for in the regulations.
                                                  In this regard,
 it would be helpful to amend the interpretive guidelines   issued

 to State survey teams so that they call for verifying the

 participation of transplant surgeons. Even
                                              more helpful
 to redesign the survey instrument for ESRD facilities      wouldit

                                                        so that   be

 is more outcome oriented. This was done recently for skilled

 nursing facilities and intermediate care 

                                           facilities.
 for a similar change involving ESRD facilities         The case

                                                 is no less
 compelling.

The network organizations could facilitate the State 

oversight in this area by providing them with data on agencies'
                                                       the trans­

plant referral rates of dialysis facilities. 

                                              Similarly,
State agencies could help the network organizations       the
 on

                                                    by passing
to them any problems they identify concerning a facility'

efforts in developing patient long-term programs and patient care

pl ans .
                   HCFA should require that as a condition of

                   reimbursement for routine dial   vsis,
                   facility must have for each patient a written
                   lonq-term DrOqram and a written Datient care
                   plan siqned bY the Datient, a neDhroloqist,
                   and a transDlant suraeon
Except for the signature requirement, this is the same require­

ment set forth 

               in the condition of Medicare coverage. The
rationale for making it a condition of payment is that the level

 of importance attached to the practice is
 requiring signatures is that the participation of the  raised.
                                                    Thepatients
                                                        point of
 and the physicians is more readily documented and
                                                                 audited.
                        HCFA should work with the Public Health
                        Service to encouraae the American Society of
                        TransDlant Suraeons fASTS) to Drovide some
                        quidance on which dialysis Datients are

                        medicall y suitable candidates for a kidney

                        transDlant
 Al though we recognize that no hard and fast criteria concerning
 medically sui table transplant candidates could or should be
 developed , some general statement addressing this matter by an
 authoritative body such as ASTS
 For network organizations, Statewould
                                   surveybeteams
                                            of considerable
                                                 and 
      value.
would provide a useful frame of reference 
                      others, it

overall adequacy of a dialysis facility'                    determining the
patients to transplant opportunities.
                                                     s efforts to alert
                                                       in




If these recommendations were to be carried 

would have a considerable effect in improvingout,
                                               the we feel of

                                                    access they

dialysis patients to kidney transplantation. They would extend

the opportunity for a transplant to many who are now denied that

opportuni ty. And they would contribute to cost savings in the

Medicare program.


The savings , as suggested earlier, would be generated in a
of ways. In                                                   numer
               the near term, the most significant would appear  to
be those associated with a reduction in the number of discarded

kidneys. In this    regard, we assume that implementation of the

above noted recommendations would be responsible for a reduction
in the overall rate of discarded kidneys from an estimated 14
percent at present to about 11 percent in
                                                       1988.
                                                   Given that
substantial number of discarded kidneys are lost because   of a
failure to identify non-sensitized patients, as was indicated in
the study cited earlier, this projection would appear to be quite
reasonable.   Because of the increased number of Medicare
recipients who would be able to receive a transplant in 

1988 , the Medicare program would benefit from cost savings
                                                          1987 and

                                                             that
wi thin 5 years would amount to an estimated $18.
Appendix II).                                                 3 million (see
                                             APPENDIX I
                                     BACKGROUND AND METHODOLOGY

Over the past few years , the subj
                                   ect of organ acquisition has

become an increasingly important and
paper reports , television news shows, controversial
                                        radio talk shows
 News­
        one.
sional hearings , and other sources have been raising hard
                                                        , congres­

                                                            ques­

tions about the adequacy of current systems for obtaining and

distributing cadaver organs and tissues that will be used for

transplantation.
Because of these questions and the Medicare program 

stake in the condition of the country I s              I s significant
systems , the Off ice of Inspector General has undertaken a broadly
                                          organ  acquisition
based study of these systems. Its
                                     overriding
promote a better understanding of them   in termspUrpose
                                                   of theiris effec­
                                                              to
tiveness , efficiency and equity, and to identify policy direc­
tions that might be taken to promote these 

                                                                ends.
The study, which was initiated in January 1986

three maj or modes of inquiry:                , has involved


     Reviews of literature and data bases

      articles, books , governmental reports, and
                                              including journal

                                                  statistical
     compilations of public and private organizations.

     Particular attention has been devoted to the review and

     analysis of 1984-85 cost reports submitted by HHS

     certified independent organ procurement agencies and by

     Medicare certified transplant 

     review of documents and reportscenters,   andby
                                       generated   tothe
                                                      the

                                                         Organ
     Transplantation Task Force established by the National
     Organ Transplant Act of 1984.
    Visi ts to 17 cities , focusing on reviews of the organ

    acquisition practices in those cities. 

    discussions with transplant surgeons andThese involved

    nephrologists , immunologists, procurement coordinators,
                                                agency
    directors, fiscal  analysts, ESRD network directors and
    others associated with organ acquisition and transplan­
    tation.  The cities visited were: San Francisco; Los

    Angeles; Denver; Chicago; MinneapOlis;  Memphis;

    Nashville; Houston; Dallas 

                                                San Antonio 

                                             Miami
    Richmond  Charlottesville; Philadelphia; New   York;

    Boston; and Washington, D. C.

   Telephone discussions and selected visits with various

   individuals knowledgeable about organ acquisition

   practices and                   issues.
                          These included representatives
   of organizations, such as the Southeastern Organ

   Procurement Foundation, and the American Council on

   Transplantation; many of the members of the task 

   academics; and various officials in the Departmentforce;
                                                       of

            Heal th and Human Services , most especially in the

            Public Health Service and the Health Care Financing

            Administration; and others.
This report is the second of a series of reports that will

present the findings and recommendations of the           Forth­
coming reports will address the costs of organ acquisition

                                                                               study.
and the effectiveness of organ procurement and distribution

systems , with particular attention to the extent and nature of
organ sharing 
 both wi thin regions and across the country.
In each of these reports primary attention will be given to

kidney acquisition. This is because there has been much more
experience and activity concerning renal than non-renal organs.
Congress has extended Medicare coverage on a near universal basis
to those requiring dialysis and transplantation since 1972.
During that time more than 50, 000 kidney transplants have been
performed in the U. S. , the maj ori ty of which have involved the
use of cadaver kidneys.
In the years ahead, however, transplantation of non-renal organs,
especially hearts and livers, will become especially prominent
given the continued advances in technology and the fact that
Medicare now covers liver transplants for Medicare eligible
children with biliary atresia and will be covering heart trans­
plants for Medicare eligible individuals meeting specified
medical criteria. This prospect for accelerated growth is

suggested by the fact that the number of both heart and liver
transplants doubled between 1984 and 1985, and from 346 to 719 in
the case of hearts and from 308 to 602 with respect to livers.
In that period, the number of kidney transplants performed 


    s. rose from 6, 968                           to 7, 965.                            in   the
Thus, the problems encountered and lessons learned concerning
kidney acquisition have broader relevance to organ acquisition
generally.  There are some distinguishing characteristics between
non-renal and renal acquisition (not the least of which is that
non-renal organs must be made available for transplantation much
more quickly). But there are also important commonalities , among
which is the fact that the same organizations typically handle
renal and non-                   renal acquisition.
                                  Accordingly, the findings and
recommendations of this study, although focused on kidneys, have
significance for organ acquisition                             in   general.
(,.




                                    APPENDIX II

                             METHODOLOGY FOR MEDICARE

                              COST SAVINGS ESTIMATES

      The methodology involves the following assumptions and calcula­

      tions:
                 We base the estimate on the period between

                 October 1, 1987 and September 30, 1988 and

               . assume that during that period and the
                preceding periods of October 1, 1986 ­
                September 30, 1987 and October 1, 1985 ­
                September 30, 1986 the rate of Medicare
                reimbursed cadaver kidney transplants would
                increase at the same rate that all cadaver
                transplants increased between CY 1984 and CY
                1985:   10 percent. Such a rate of increase
                would result in 5, 772 Medicare reimbursed
                cadaver transplants in FY 1986 (5,
               percent increase), 6, 349 in FY 1987247 plus 10

                                                     (5 772
               plus 10 percent increase), and 6, 984 in FY
                1988 (6 349 plus 10 percent).
               We assume that the discard (wastage) rate for
               FY 1987 will be 14   percent. This is based on
               estimates of individuals who have studied the
               matter in  depth and on data obtained from
               Aetna and from the HCFA Annual Facility
               Survey.   See page 10 of our forthcoming
               report entitled "Organ Acquisition Costs: An

               Overview. "
               With a 14 percent wastage rate, organ

               procurement agencies would have to procure

                 121 cadaver kidneys in FY 1988 to account
               for 6, 984 cadaver transplants. This involves
               the wastage of 1, 137 kidneys. If the wastage
               rate were 11 percent, 893 kidneys would have
               been wasted (11 percent of 8, 121) instead of
                 137 (14 percent of 8, 121). This represents
               an additional 244 transplants that could be
               performed (1, 137 minus 893)for a total of
                 228.
               Each transplant of a Medicare beneficiary

               generates an estimated 5- year cost savings of
               $75, 000 (for an explanation of the method­
               ology used in deriving this $75, 000 estimate,

               see Appendix II of our August 1986 report

               entitled "The Access of Foreign Nationals to

               U. S. Cadaver Organs.
Thus , the estimated 5- year cost
the 244 additional kidneys that
 savings for
provided to Medicare recipients would be

$18. 3 million                    in FY 1988 is
               (244 x $75   000).
                                 APPENDIX III

                    HCFA, ASH, AND ASPE COMMNTS ON THE
                       DRAFT REPORT AND OIG RESPONSES

     We received comments on the draft report from the Administrator,
     Heal th Care Financing Administration (HCFA), the Assistant

     Secretary for Health (ASH), and the Assistant Secretary for
     Planning and Evaluation (ASPE). These comments were of four
     maj ortypes:    (1) general observations about the overall report
     (2) reactions to draft recommendations, (3) reactions to specific
     findings, and (4) concerns about methodology. Below, we indicate
     the maj or comments offered in each of these areas and, where
     appropr ia te, present our responses.
     GENERAL OBSERVATIONS

     HCFA indicated that it generally concurred with the findings
     presented in the draft    report.
                                     Further, it noted that the
     Omnibus Budget Reconciliation Act (OBRA) of 1986 (P. L. 99-509)

     includes several sections that address the subject matter con­

     tained in the report and suggested that the Office of Inspector

     General (OIG) may wish to review these sections. They include:
     Section 93l8--Hospital Protocols for Organ Procurement and

     Standards for Procurement Agencies; Section 9335 (d) --Reorgan­
     ization of ESRD Network Areas and Organizations; Section 9335 (f)
     --Responsibilities of Network Organizations; and Section 9335 (i)
     --National ESRD Registry.


     ASPE noted that the report " raises many valid issues regarding a

     subj ect that is of great interest to the Department.   It ex­
     pressed support for the " general conclusion that the option of
     kidney transplantation must be offered to all eligible patients,
     but indicated concern about placing onerous reporting require­
     ments on treatment facilities.
     ASH' s comments focussed on the recommendation directly involving
     the Public Health Service and on the methodology of the   inspection.
I.
     REACTIONS TO DRAFT RECOMMNDATIONS
               HCFA should require that network organiza­

               tions prepare and disseminate, annually, a

               report that indicates, by dialysis facility,
               the proportion of patients on a transplant

               waiting list.
HCFA reacted as   follows:
     "In the proposed End stage Renal Disease (ESRD)
     regulation revision, we will require the creation and

     maintenance of a transplant waiting list by each

     facili ty.  This, plus the proposed expansion of organ
     procurement requirements via the creation of a new

     condi tion of coverage would appear, when coupled with
     existing criteria, to provide sufficient data to

     prepare and disseminate an annual report, rather than

     invol ve the networks. Development of a national
     average, rather than a network average of patients

     referred, could be coupled with appropriate comments on

     transplant situations and covered in the existing ESRD

     annual report.
In response, we added a paragraph in the discussion following the
recommendation (p.   12).
                        In it we note that in requiring a
transplant waiting list for each facility, HCFA is taking an
important step. However, we also note that we still feel that to
assure sufficient impact, it is important (1) to require that
each facility specify the proportion of its patients on a
transplant waiting list and (2) to disseminate this information
widely.
          HCFA should ensure that intensive oversight

          is given to dialysis facilities having

          transplant referral rates appreciably below

          the network average. In particular, the
          network organizations should be required to

          conduct thorough medical records reviews of

          such facilities and be authorized to (1)
          prescribe corrective action plans and (2)
          recommend sanctions for facilities failing to

          respond.
HCFA reacted as   follows:
     "Where transplant referral rates appear appreciably
     below the national average, we could have the state
     survey agency investigate the reason for such a low
     average. It appears inappropriate to adopt the concept
     that the network consider such options as sanctions,
     etc.  Any action with respect to the facilities
     participation, sanctions, or reimbursement should be
     restricted to HCFA. To do otherwise would place HCFA
     in the position of having to defend, upon challenge,
     network determinations.
In response, we deleted the provisions in the recommendation that
called for ESRD network organizations to be authorized .
recommend sanctions for facilities failing to respond.   While we
     (p.





       feel such authorization could be helpful at some point
       HCFA' s jUdgment that it is "inappropriate" at this                , we accept
                                                                       time.
       We have also added a paragraph in the discussion following the
       recommendation (p . 13) that suggests that HCFA could ask the State
       survey agency to investigate the reasons for a low percentage of
       referrals from a particular dialysis
                                                           facility.
       indicate in that same paragraph, we still regard However,  as we
                                                          it as appro­
       priate and important for network organizations to be given
       responsibili ty for identifying and directing corrective 

                                                                               actions.
                          HCFA should ensure that State survey agencies
                          conduct a thorough and more outcome-
                                                               oriented
                          review of the Medicare condition of coverage
                          concerning patient long-term programs and
                          patient care plans.
      HCFA reacted as                   follows:
             "We concur with this recommendation and we are cur­

             rently pilot testing new survey requirements in one

             State. We expect to implement the new survey require­

             ments in all States by October
                                                          1987.
             Also , our proposed revision of the ESRD regulation will
             be directed toward outcomes via a requirement that
             transplantation and home dialysis assessments become a
             part of the patient' s medical record.

                        HCFA should require that as a condition of

                        reimbursement for routine dialysis a facility

                        must have for each patient a written long-

                        term program and a written patient care plan

                        signed by the patient and the professional

                        team.

     HCFA reacted as                  follows:

l.          "Subpart U, S405. 2l37 currently provides for a written
            long-term program and a written patient care plan

            involving the professional team and the patient. 

            change being suggested here is that it be 
                  The
            patient and professional team               siqned by the
            to this for audit pUrposes       While we do  not object
            required , we recommend it be restricted to thetotrans­
                                       , if a signature  is    be

            plant surgeon , nephrologist and patient rather than the
            entire team.

     We agreed with HCFA' s reaction and amended the recommendation

        13) to restrict the signature requirement to a
     transplant surgeon and patient.                    nephrologist,
          HCFA should work with the  Pulic Health
          Service to encourage the American Society of
          Transplant Surgeons (ASTS) to provide some
          guidance on which dialysis patients are
          medically suitable candidates for a kidney

          transplant.
HCFA , ASH , and ASPE concurred with this recommendation.
                                                            HCFA,
first of all , reacted as follows:

     "We concur with the recommendation that the ASTS
     provide some guidance regarding criteria for deter­
     mining medically sui table candidates for transplan­
     tation. We would recommend said contact be expanded to
     include an assessment concerning the reason why older
     kidneys are refused by American surgeons, yet
     successfully transplanted by foreign surgeons.
ASPE expressed its support with the following   words:
    " . . . I strongly endorse your recommendation that the
    American Society of Transplant Surgeons be asked to
    provide guidance on which dialysis patients are
    medically sui table candidates for kidney transplants.
    This guidance could be developed in a form suitable for

    medical professionals and in a pamphlet for patients.

Finally, ASH offered the following reaction and   information:
    "We concur. PHS will work with HCFA to assist the

    American Society of Transplant Surgeons to provide

    guidance concerning kidney transplants for dialysis

    patients.
    The National Institute of Diabetes and Digestive and

    Kidney Diseases (NIDDK) already has an interagency

    agreement with HCFA to facilitate the collection and

    analysis of such data. To this end, NIDDK will

    establish through a contract, an End Stage Renal

    Disease (ESRD) data system that will compile data on
    all types of ESRD patients, including those undergoing
    hemodialysis, continuous ambulatory peritoneal dialy­
    sis, and transplantation. The system will contain
    types of data which are currently not collected at all
    or are collected in only a limited way, including data
    on the etiology of the underlying renal disease
    methods of patient treatment and associated patient
    outcomes, and complications of treatment.
    The new ESRD data system will enable tracking of 

    patients through multiple therapies and some comparison

    of the effectiveness and complications of dialysis and

    transplantation.
!.




            NIDDK expects to award the contract to establish the
            ESRD data system during this fiscal  year.   The system
            should be operational in mid-fiscal year   1988.  The
            data collected and analyzed through this effort may
            prove useful to HCFA and other agencies and organiz­
            ations in addressing issues surrounding therapeutic
            alternatives in ESRD. In addition to the American
            Society of Transplant Surgeons, the following groups
            will' be involved in the definition of tasks , scope, and
            workplans for the development and implementation of the
            data system:   American Society of Nephrology; American
            Society of Pediatric Nephrology; American Society of

            Transplant Physicians; American Society of Artificial

            Internal Organs; National Kidney Foundation; Renal

            Physicians Association; National Association of

            Patients on Dialysis and Transplantation; American

            Diabetes Association; and Juvenile Diabetes Foundation

            International. "
       REACTIONS TO SPECIFIC FINDINGS

       ASH noted that the reasons we cited for the differential between
       the proportion of sui table transplant candidates and the percent
I .	
l ,	
       actually awaiting a transplant were not complete   (p. 3).Speci­
       fically, ASH indicated that we did not mention that dialysis
       patients also elect not to undergo transplantation because they
       fear giving up their time slot for weekly dialysis or because
       they cannot pay for cyclosporine.

            OIG Response   Upon review , we decided that the concern

            about giving up a time slot is a pertinent considera­
            tion.  Accordingly, we noted it on page 3 of the final
            report. wi th respect to the concern about the costs of
            cyclosporine, we did get some comments about how cost

            considerations might delay transplantation for a

            patient on a waiting list.   However, we did not have
            sufficient information to determine whether or not it
            was an important factor in determining whether or not a
            patient was listed on a transplant waiting   list.
       ASH indicated that " while an 11 percent referral rate may be low

       not all patients on dialysis can be considered for transplan­

       tation.  For example, the patients may be too sick or have other
       medical problems that preclude them from being considered for

       transplantation. "
            OIG Response   We recognize that not all dialysis

            patients are transplantation candidates.  Accordingly,
            we note on page 2 of the draft and final reports that
            "transplant surgeons report that at least 20 to 25
            percent of the dialysis population is medically
            suitable for a kidney transplant.
. ,




       CONCERNS ABOUT METHODOLOGY

       Both HCFA and ASH raise concerns about conclusions 	                        in   the report
       being inadequately supported by                            documentation.
                  OIG Response   As indicated in Appendix I, the report

                  is based on a careful review of available data sources

                  and on extensive discussions with individuals directly

                  involved with organ acquisition. It is not based on a

                  random sample of dialysis facilities or medical

                  professionals.
                   Thus, while the findings are not statistically valid
                   according to the precepts of experimental design, they
                   are based on wide-ranging and thorough explorations in
                   a diversity of                     settings.
                                             Such explorations, although
                   not allowing for certainty, do allow for reasoned
                   insights and judgments.
       ASH noted that the methodology used to predict Medicare cost

       savings has two flaws. First, it indicated that the report used

       the total numer of transplants performed in 1985 to predict
       savings, even though about 25 percent of all transplants are from
       living related donors.  Second, it added that kidney wastage
       rates have declined considerably in recent years, thereby
       affecting our estimate on the numer of additional transplants
       that might be performed. In this context, ASH noted that "the
       Organ Transplantation Task Force found that in some areas of the
       country the wastage rates are as low as 5 percent.

                   OIG Response   With respect to the first point, our
l ,	               calculations have been based on the total numer of
                   cadaver kidney transplants. They have not included
                   living related transplants. On the second point, in a
                   forthcoming report on organ acquisition costs, we
                   present data that shows that the kidney wastage rate
                   has, indeed, dropped over the past few years but was
                   still at about 14 percent in        Moreover, and1985.
                   perhaps more importantly, we indicate that in some
                   places the numer of cadaver kidneys wasted is signif­
                   icantly underreported.
                   The cost savings data and methodology presented in this
                   final report are somewhat revised to reflect more
                   recent data and to focus on FY 1988 rather than FY
                   1987. As a result, the savings estimate is increased
                   from $16. 9 million to $18. 3 million.
I ,

